U.S. GENERAL SERVICES ADMINISTRATION 

OFFICE OF INSPECTOR GENERAL

             Review of GSA’s University for People
                          National Capital Region

                                    Audit Report
                            A050250/O/W/F06017
                                 August 28, 2006
                           Washington Field Audit Office
                                       Washington, DC
Date:	         August 28, 2006

Reply to       Regional Inspector General for Auditing
Attn of:       Washington Field Audit Office

Subject:	      Review of GSA’s University for People, National Capital Region
               Report Number A050250/O/W/F06017

To:	           Ann W. Everett
               Acting Regional Administrator (WA)

This report presents the results of our review of GSA’s University for People, National
Capital Region. The initial objective of this review, performed at management’s request,
was to determine whether General Services Administration’s (GSA) University for
People (U4P) operates effectively and efficiently. To accomplish our objective we
surveyed the funding, procurement, customer relations, contract administration and
internal staffing program areas. Our survey indicated significant procurement
deficiencies and accordingly, we refocused our review to concentrate on whether U4P’s
procurement and contract administration management controls were in compliance with
Federal Acquisition Regulations and good business practices.

Based on our review, we found that U4P’s delivery of project management training was
flawed by substantial procurement deficiencies and irregularities. Essentially, U4P has
entered into an unauthorized, sole source procurement to acquire project management
training on behalf of its client organizations. This contract incorporated commercial
provisions unacceptable to the Federal Acquisition Regulations and was negotiated,
signed and executed by a Government representative who lacked the authority to enter
into the agreement on behalf of the Government. In addition, fundamental controls are
absent from the contract administration process and current practices do not permit
reconciliation between the source of funding (customer orders placed with U4P) and the
payment for services (U4P orders placed with its vendor). The effect of this is seen in the
number of obligations that remain open beyond the fiscal year with no apparent
justification under appropriations law.

If you have any questions regarding this report, please contact myself or Paul Malatino,
Regional Inspector General for Auditing, at (202) 708-5340.


Barbara E. Bouldin
Audit Manager
Washington Field Audit Office (JA-W)
GSA/OIG/A050250/O/W/F06017                                                                                 For Official Use Only



TABLE OF CONTENTS
EXECUTIVE SUMMARY
  PURPOSE ...........................................................................................................................1 

  BACKGROUND ...................................................................................................................1 

  RESULTS-IN-BRIEF ............................................................................................................1 

  RECOMMENDATIONS .........................................................................................................1 

INTRODUCTION
  BACKGROUND ...................................................................................................................3 

  OBJECTIVE, SCOPE AND METHODOLOGY ..........................................................................4 

    Procurement Review ......................................................................................4

    Contract Administration and Internal Staffing ..............................................4

RESULTS OF REVIEW
  SUMMARY .........................................................................................................................6 

  FINDINGS ..........................................................................................................................6 

    Unauthorized, Sole Source Procurement.......................................................6

    MTA Terms and Conditions at Variance with Schedule Contract.................7

    Contract Administration Deficiencies............................................................8

    Administering the Memoranda of Agreement ................................................9

  CONCLUSION ...................................................................................................................11 

  RECOMMENDATIONS .......................................................................................................12 

  MANAGEMENT’S COMMENTS ..........................................................................................12 

  AUDITOR’S RESPONSE.....................................................................................................12 

  MANAGEMENT CONTROLS ..............................................................................................13 

APPENDICIES
  PROJECT MANAGEMENT CURRICULUM ...........................................................................14 

  MANAGEMENT RESPONSE ...............................................................................................16 

  REPORT DISTRIBUTION ...................................................................................................19 





                                                                                                            For Official Use Only
GSA/OIG/A050250/O/W/F06017 	                                             For Official Use Only



EXECUTIVE SUMMARY

Purpose
The initial objective of this review, performed at management’s request, was to determine
whether General Services Administration’s (GSA) University for People (U4P) operates
effectively and efficiently. To accomplish our objective we surveyed the following areas
of U4P’s program: funding, procurements, customer relations, contract administration and
internal staffing. Our survey indicated significant procurement deficiencies. Accordingly,
we refocused our review to concentrate on whether U4P’s procurement and contract
administration were in compliance with Federal Acquisition Regulations and good
business practices.

Background
GSA’s U4P was established in 1997 as a result of a customer service lab initiative within
the National Capital Region (NCR). Its mission is to provide a continuous learning
environment, while also creating an environment where employees have the opportunity to
develop their talents, think creatively, and set goals that are consistent with personal and
agency needs. U4P’s vision is to provide an opportunity for the workforce to gain the
skills and education that will position them to meet the challenges of the 21st century.
U4P’s current customers consist of GSA internal organizations. Actual training is
provided by vendors under contract with U4P.

Results-in-Brief
U4P’s delivery of project management training was flawed by substantial procurement
deficiencies and irregularities. Essentially, U4P has entered into an unauthorized, sole
source procurement to acquire project management training on behalf of its client
organizations. The contract incorporated commercial provisions unacceptable to the
Federal Acquisition Regulations and was negotiated, signed and executed by a
Government representative who lacked the authority to enter into that agreement on behalf
of the Government. In addition, fundamental controls are absent from the contract
administration process. Generally, vendor invoices were not, and could not be reconciled
with their originating order document, increasing the risk that a vendor is paid for
unauthorized services. Further, current practices do not permit reconciliation between the
source of funding (customer orders placed with U4P) and the payment for services (U4P
orders placed with its vendor). The effect of this is seen in the number of obligations that
remain open beyond the fiscal year with no apparent justification under appropriations law.

Recommendations
We recommend that the Acting Regional Administrator for GSA’s National Capital
Region ensure that U4P:
   1. 	Develops a formal business plan that includes a description of the business, its
       potential customers, marketing, competition, operating procedures, personnel,
       funding source and income projections.

                                             1	                          For Official Use Only
GSA/OIG/A050250/O/W/F06017 	                                             For Official Use Only


   2. 	 Develops and maintains acquisition plans to support its business plan.
   3. 	Obtains appropriate procurement support and institutes the formal controls
       necessary to properly administer the resulting contracts. Vendor documentation
       and reporting requirements are elements of control that should be considered in the
       acquisition plan.
   4. 	Establishes appropriate fund and accounting controls to ensure compliance with
       applicable appropriation law and facilitates program management. A completed
       course database could help administer the Memoranda of Agreement. Also, open
       data fields within Pegasys could be used to identify and capture financial events by
       MOA and by curriculum.




                                             2	                          For Official Use Only
GSA/OIG/A050250/O/W/F06017                                                            For Official Use Only



INTRODUCTION

Background
The General Services Administration’s University for People (U4P) was established in
1997 as a result of a customer service lab initiative within the National Capital Region
(NCR). Its mission is to provide a continuous learning environment, while also creating an
environment where employees have the opportunity to develop their talents, think
creatively, and set goals that are consistent with personal and agency needs. U4P’s vision
is to provide an opportunity for the workforce to gain the skills and education that will
position them to meet the challenges of the 21st century.

At the time of our audit, the U4P relied on five people to carry out its mission and goals, as
detailed below. Note that only two of the five are considered direct employees of U4P:
        Director (U4P Full Time Employee (FTE))
        Curriculum Educational Specialist (U4P FTE)
        Contract Specialist (retired December 2005; however, funded by the Public
        Buildings Service (PBS) while serving as U4P staff)
        Management Analyst (Program Support Division employee)
        Administrative Employee (contractor).
Although it is a component of NCR, U4P extends its services to GSA agency-wide. Its
funding, originally derived from an appropriated account, has been funded since 2003 as a
component of GSA’s 262x revolving fund. At that point, U4P became a fully
reimbursable “fee for use” program. To sustain itself, U4P was compelled to seek business
opportunities beyond NCR.

U4P’s current customers consist of GSA internal organizations: the Federal Technology
Service (FTS) and Federal Supply Service (FSS) (currently the newly formed Federal
Acquisition Service), Public Buildings Service, Office of Civil Rights, Office of the Chief
Information Officer, Office of the Chief Financial Officer, Office of Government-wide
Policy, Office of Chief People Officer, Office of the Chief Acquisition Officer, and the
Office of Citizens Services. U4P and each customer enters into a Memorandum of
Agreement (MOA) that identifies the type of training requested and the total cost of the
training, including up to an 18 percent fee, charged by U4P. Currently, over 30 courses are
available to U4P’s clients in the areas of: Customer Service; Computer Training;
Communication Skills; Interpersonal Skills; Acquisition Training; Task/Project
Management; Critical Thinking; Reading Comprehension; and Basic Mathematics.

At the time of our review, project management courses accounted for approximately 88
percent of U4P’s business. A series of policy letters1 issued by the Office of Management
and Budget (OMB) created a surge in project management training. These regulations
1
  OFPP Policy Letter 05-01, Developing and Managing the Acquisition Workforce, aligns core civilian
agency acquisition workforce training requirements with those for the defense workforce. It also replaces
rescinded OFPP Policy Letters 92-3 and 97-01, which established an emphasis on the development of the
acquisition workforce but did not prescribe a core, government-wide curriculum.

                                                     3                                For Official Use Only
GSA/OIG/A050250/O/W/F06017 	                                           For Official Use Only


established policies and procedures, including training requirements, to ensure the
acquisition workforce (including program and project managers) was adequately trained.
The remaining 12 percent consisted of computer-related or customized training. U4P
selected ESI International (ESI) as its sole vendor of project management training, due in
large part to ESI’s partnership with The George Washington University. Under this
partnership, GSA trainees have the option of earning Associates and Masters Certificates
in project management in association with The George Washington University, School of
Business and Public Management. During Fiscal Year (FY) 2005, ESI trained 2,662 GSA
associates at a cost of $1.46 million.

Objective, Scope and Methodology
The objective of our review was to determine whether GSA’s U4P operates effectively and
efficiently. To accomplish our objective we surveyed the following U4P program areas:
funding, procurements, customer relations, contract administration and internal staffing.
We determined that a focus on U4P’s procurement practices and contract administration
would prove most beneficial to management at the time of our review. Our review
encompassed a sample of FY 2005 project management task orders, the Memoranda of
Agreement (MOA) for ten U4P client organizations, and all related contract
documentation.

Procurement Review
In order to accomplish the objectives for our review with a focus on U4P’s procurements,
we performed the following:
    • 	 Interviewed U4P staff to determine the history of the U4P program, its functions
        and staff roles and responsibilities.
    • 	 Interviewed Program Support Division (WCA) personnel to gain an understanding
        of its responsibilities related to U4P’s procurement procedures.
    • 	 Sampled ten U4P FY 2005 project management task orders issued to ESI.
    • 	 Examined ten FY 2005 client MOAs.
    • 	 Queried GSA Finance’s databases to obtain and review all FY 2005 ESI invoices
        issued to U4P and other financial transactions.
    • 	 Interviewed ESI personnel.

Contract Administration and Internal Staffing
In order to accomplish the objectives for our review with a focus on U4P’s contract
administration and internal staffing capabilities, we performed the following:
   • 	 Analyzed and traced pertinent procurement documents from initial order through
       invoice submission for the sampled task orders.
   • 	 Interviewed seven U4P clients to gain an understanding of program successes,
       failures, and possible suggestions for improvements.
   • 	 Reviewed U4P’s internal policies, procedures and best practices.
   • 	 Analyzed support documentation for ten FY 2005 project management task orders.
   • 	 Documented the procurement practices for Equal Employment Opportunity (EEO),
       computer, and other types of training.


                                            4	                         For Official Use Only
GSA/OIG/A050250/O/W/F06017                                         For Official Use Only


Our review was conducted between September 2005 and April 2006, in accordance with
generally accepted government auditing standards and in compliance with the laws and
regulations to the extent necessary to satisfy the review objectives.




                                         5                        For Official Use Only
GSA/OIG/A050250/O/W/F06017                                               For Official Use Only



RESULTS OF REVIEW

Summary
Our review, focused on U4P’s delivery of project management training, found substantial
procurement deficiencies and irregularities. Essentially, U4P has entered into an
unauthorized, sole source procurement to acquire project management training on behalf of
its client organizations. The resultant contract incorporates numerous commercial
provisions unacceptable under Federal Acquisition Regulations. The contract was
negotiated, signed and executed by a Government representative who lacked the authority
to enter into that agreement on behalf of the Government.

Further, as specific client requirements arose, U4P issued task orders that misleadingly
referenced another GSA issued contract held by the contractor (a legitimate multiple award
schedule (MAS) contract put in place by the GSA Federal Supply Service and available to
all government purchasers), while the terms and conditions of the unauthorized sole source
contract (Master Training Agreement) were in fact controlling. These task orders, signed
by a GSA contracting officer, did not provide order details (such as course name, date,
place, unit price) or contain the minimum information needed to administer and control the
procurement. In fact, it was the absence of detail that prompted our search for the terms of
agreement that governed the underlying transactions and ultimately led us to the sole
source contract, which was not maintained by U4P as an official document of record. We
learned of this document only through discussion with the contractor.

Due at least in part to the ambiguity of the underlying procurement vehicle, fundamental
controls are absent from the contract administration process. Generally, vendor invoices
were not, and could not be reconciled with their originating order document, increasing the
risk that a vendor is paid for unauthorized services. Further, current practices do not
permit reconciliation between the source of funding (customer orders placed with U4P)
and the payment for services (U4P orders placed with its vendor). The effect of this is
seen in the number of obligations that remain open beyond the fiscal year with no apparent
justification under appropriations law.

Findings
Unauthorized, Sole Source Procurement
In reconstructing the relevant procurement history between U4P and its project
management training vendor, ESI, it appears that U4P initially intended to acquire ESI’s
training services via a series of individual task orders to be issued under ESI’s existing
MAS contract. ESI holds three MAS contracts - one under the MOBIS (Mission Oriented
Business Integrated Services) schedule, one under the Information Technology (IT)
schedule, and one under the Training Aids schedule. The MOBIS contract excludes IT
specific training, but otherwise provides for general business topics such as project
management. ESI’s offerings under Training Aids relate to procurement training. The
significance of issuing a task order under a schedule contract is that for the ordering
agency it provides a much more streamlined acquisition. Pricing, terms and conditions are

                                             6                          For Official Use Only
GSA/OIG/A050250/O/W/F06017                                               For Official Use Only


already established so the full and open competition that would otherwise be required is
replaced with simply issuing a task order.

On May 6, 2002, ESI and the Director of U4P entered into a Master Training Agreement
or MTA - an ESI document used to establish the terms of agreement that govern its
commercial contracts. It enumerates specific terms, conditions, deliverables and penalties.
These terms are, in several material aspects, at odds with the schedule contract and in fact
assert precedence over that contract. The MTA states in part:

       “This Agreement and any Session Confirmations specifically referred to
       constitute the entire Agreement between the parties as to the subject matter
       hereof and supersede all other agreements, expressed or implied, written or
       oral. Pre-printed and other additional or conflicting terms in any invoice,
       purchase order, acknowledgement, confirmation, or other similar document
       shall be void and of no effect. No modification of, or amendment to, this
       Agreement is binding unless such modification or amendment makes
       specific reference to this Agreement and be in writing and signed by both
       parties.”

While the MTA clearly defines and governs the terms of sale from May 6, 2002, and is in
substance the governing contract, purchases under that agreement instead took the form of
task orders issued against the ESI MOBIS contract number with the MTA itself never
formally referenced. Absent the MTA, the task orders do not contain details sufficient to
describe the services being ordered or the terms of agreement. It was in fact this
deficiency that prompted our search for the governing terms. We learned of the MTA and
obtained copies of the document from discussions with the vendor. Although it serves as
the only evidence of the terms of agreement, the MTA has not been incorporated as an
official document of record. It supersedes and replaces the schedule contract with an
agreement that in this instance has been negotiated, signed and executed by a Government
representative who was not a contracting officer and lacked the authority to enter into that
agreement on behalf of the Government. The result is an unauthorized sole source
procurement.

MTA Terms and Conditions at Variance with Schedule Contract
The original MTA stated that ESI would deliver the course Managing Projects in
Organizations to 745 GSA employees agency-wide. This original Agreement was
amended five times between February 2003 and October 2005, to add new courses,
increase the number of training slots by 3,800 and institute and revise minimum order
penalties. Changes in the MTA are executed by new or revised task orders against the
MOBIS contract, even in those instances where the added courses were titles not available
under the MOBIS contracts. The result is a misleading procurement action, contrary to
procurement regulations and the term of the MAS contract, and in at least one aspect,
contrary to appropriations law.




                                             7                           For Official Use Only
GSA/OIG/A050250/O/W/F06017                                               For Official Use Only


For example, the 2005 Master Training Agreement Renewal incorporates the following
change:

       “U4P guarantees a total training volume of seventy-five (75) classes
       between October 1, 2004 and September 30, 2005. In the event that U4P
       has delivered fewer than 75 courses on September 30, 2005, ESI will
       invoice U4P for the difference in quantity of classes between the actual
       number of classes delivered and the minimum required volume at the rate of
       $13,650 per class.”

The terms of U4P’s agreement with ESI impose a penalty if U4P orders fewer than 75
classes during the fiscal year. The agreement gives ESI the right to bill U4P for all
undelivered classes, and to do so at a penalty rate of $13,650 per class, versus the normal
cost of $8,250 per class. U4P’s customer agreements contain no such penalty provision.
Most of the agreements do provide for a cancellation fee of $2,000 per class, but this only
applies to classes actually ordered. There is no means for U4P to recover from its clients
for a failure to meet their requirements estimate. Accordingly, the ESI penalty clause of
$13,650 per class creates a potential unfunded liability for each undelivered class.

The 2005 Master Training Agreement also incorporated a change to the previously
required minimum class size. According to the original MTA, issued in 2002, U4P agreed
to deliver a minimum 15 attendees per class at a cost of $550 per slot ($8,250 per class).
The FY 2005 Master Training Agreement increases the initial minimum standard course
attendance from 15 to 18 slots per class (in addition to the 75 class guarantee). Our review
found that in FY 2005, U4P’s clients paid $42,900 to ESI for 25 instances where they did
not meet the minimum student requirement. As such, the decision to increase the class
size minimum does not appear to be in the best interest of the government. We note that
the FY 2006 MTA returns the minimum to 15 attendees, with an agreement to target 18 as
an average class size per quarter.

The MTA purports to supersede the terms and conditions of the schedule contract. But
even if there had been no MTA, the U4P task orders as issued would still be deficient in
that they include nine course titles that are not available under ESI’s MOBIS contract
(Schedule 874). Five of these courses are Information Technology (IT) related and while
not on the MOBIS Schedule, they are available on ESI’s IT Schedule contract (Schedule
70). See Appendix A for details. We determined that 112 trainees attended the Systems
Integration and Project Management course, 81 attended IT Risk Management, and 74
attended the Managing IT Projects course; these courses are available through ESI’s IT
Schedule contract only, and are not available through ESI’s MOBIS Schedule contract.

Contract Administration Deficiencies
We sampled ten FY 2005 project management task orders and their respective invoices.
U4P failed to record the title, date and number of attendees for requested course(s) on nine
out of ten of the original task order documents (GSA Form 300). Two failed to identify
the customer agency for which the training courses were being acquired. None of the
initial task order documents or subsequent modification documents contained course

                                             8                           For Official Use Only
GSA/OIG/A050250/O/W/F06017                                                For Official Use Only


locations. As a result, an important control feature is compromised: the vendor invoice for
classes delivered cannot be verified against its authorizing purchase order. The following
chart presents the sample results:

      U4P Task Order    Course     Course     Course    Period of  Customer Total # of
          for ESI       Date(s)   Location(s) Title(s) Performance Agency Attendees

      B1105MEM0006
      B1105MEM0007
      B1105MEM0009
      B1105MEM0010
      B1105MEM0011
      B1105MEM0015
      B1105MEM0030
      B1105MEM0031
      B1103MEM0037
      B1105MEM0040
           order document included this data element



In addition, U4P’s recordkeeping process is undocumented and informal. There are a
number of documents maintained, but the informational content is not verifiable. The
internal documents include Memoranda of Agreement, Orders for Supplies or Services
(GSA Form 300), and handwritten notes on file folders; the external documents include
contractor invoices, Training Summary Report, Monthly Billing Logs and Training Roster
Sheets, all of which, relative to the project management curriculum, are provided by ESI.
Current procedures do not permit a verifiable reconciliation of the invoice to order
document, or invoice to an official course roster. The roster in turn does not identify the
MOA under which a given student is sponsored, which leaves only the cuff records as a
means to administer the various memoranda of agreement.

Administering the Memoranda of Agreement
U4P customers place orders for training by entering into a Memorandum of Agreement
(MOA) or making payments by credit card. The MOA is between the client organization
and U4P and typically covers a period of time within a given fiscal year. The MOA is the
official document that identifies and obligates the fund amount allotted to U4P for training.
General information contained in the MOA is:
       RESPONSIBILITIES; PURPOSE;
       SCOPE;
       DESCRIPTION OF SERVICES;
       FUNDING;
       CUSTOMER
       U4P RESPONSIBILITIES; AND
       COST OF SERVICES.

                                                 9                       For Official Use Only
GSA/OIG/A050250/O/W/F06017                                                             For Official Use Only




Generally, for Project Management courses, the amount of the MOA divided by $650
yields the number of training slots the customer is purchasing. This amount includes the
fee U4P earns to cover its cost of operations. U4P in turn places orders with the vendor by
submitting an Order for Supplies or Services (GSA Form 300) or task order at its
negotiated contract rate of $550 per student. If a customer wants to purchase additional
training slots, the MOA is amended and another task order is issued to the vendor.
Services ordered under a given task order are not necessarily exclusive to a single client
organization or MOA. Students covered under different MOAs are at times combined into
a single class.

U4P has no formalized means to match source of funds with use of funds to ensure that
funds originating under a given MOA were used as authorized. The fragmented,
unsystematic methods of recordkeeping currently followed are not effective as a control
feature. We identified classes from 19 invoices that were completed and paid for after the
ending date of the MOA. In addition, we identified over $110,000 of U4P training fund
obligations from five client organizations that remained open into the following fiscal year
with no clear justification. We discussed these matters with both the Kansas City Finance
and NCR Budget Divisions. Neither was aware of any additional facts that might explain
the apparent funding violations.

Services are generally viewed as chargeable to the appropriations current at the time the
services are rendered, although a need may arise in one fiscal year for services, which by
their nature cannot be separated for performance in separate fiscal years. The GAO
Comptroller General has held that the question of whether to charge the appropriation
current on the date the contract is made, or to charge funds current at the time the services
are rendered, depends upon whether the services are “severable” or “entire.”2 In an
example specifically provided in the GAO text, “Training tends to be nonseverable. Thus,
where a training obligation is incurred in one fiscal year, the entire cost is chargeable to
that year, regardless of the fact that performance may extend into the following year.
Training which began on the first day of FY 1990 was held chargeable to 1989
appropriations where the training had been identified as a need for 1989”. However, in the
example, scheduling was beyond the agency’s control. That is not the case with U4P and
its clients, where a delay in scheduling a class is not considered beyond control.

We found that U4P inappropriately applied FY 2005 funds to pay for training courses
attended and completed in FY 2006. For example, in one instance, the client and U4P
entered in an agreement that covers the period December 1, 2004 through September 30,
2005. Under this agreement, U4P is responsible for developing and delivering project
management training courses to the client. Project Management is a core area of training
offered recurrently by U4P. The client is responsible for ensuring that associates attend
the course and arrange for substitutes. Funding for the training is set in the MOA, which
2
  GAO/OGC-91-5 Appropriations Law-Vol. I. A contract which is viewed as “entire” is chargeable to the
fiscal year in which it was made, notwithstanding that performance may have extended into the following
fiscal year. The determining factor for whether services are severable or entire appears to be whether they
represent a single undertaking.

                                                     10                                For Official Use Only
GSA/OIG/A050250/O/W/F06017                                                For Official Use Only


also defines the number of slots (or students) to be trained. The client informs U4P of the
training course(s) and sessions they want to attend.

As of September 30, 2005, the ending date of the MOA, only one course/class had been
completed, invoiced, and paid for. Subsequently, four other invoices were eventually
submitted by the vendor, which showed payments for training that occurred during the
months of November and December 2005 and January and February 2006. Financial
records indicate that the same funds allotted in FY 2005 were used to pay for the classes
completed in FY 2006.

Both the client and the U4P bear responsibility to properly manage their MOA to remain in
compliance with federal appropriations law. Had the client bypassed U4P and issued task
orders with the vendor directly, any unused FY 2005 funds would have expired. There is
nothing inherent in the U4P MOA that alters the nature of the services being acquired. It
is therefore incumbent upon U4P to monitor course activity against the terms of each
MOA and provide timely feedback to its clients so they can take appropriate action. It is
not within U4P’s authority to retain any unused balance to support future requirements.
Absent a bona fide need, any amounts that remain unobligated at year-end must be
returned to the client. The severable nature of this particular service and the fact that the
client can control the class schedule appear to defeat the argument that classes scheduled
and completed in FY 2006 are a bona fide need of FY 2005.

Conclusion
This review was performed at management’s request, and was initially conceived as a
program performance review. It was to include an assessment of customers’ perception of
value, the efficacy of U4P’s rate setting strategy and an examination of procurement
practices to ensure regulatory compliance and application of best practices. However, as
our survey work proceeded, it became evident that the procurement processes in place
were resulting in exceptions to Federal Acquisition Regulations and GSA’s own
procurement policies. Accordingly, we refocused our audit to concentrate on these
procurement issues and the related topics of contract and fund administration.

The specific corrective action needed to address the deficiencies related to contract and
fund administration is dependent on the nature of future procurement actions. The
acquisition planning that should precede the determination of future contract type(s) is in
turn dependent on U4P’s definition of program mission and goals. If U4P is to play an
active role in formulating GSA-wide training goals and tailoring courses to best meet those
needs, the procurement requirements will be more complex. It is unlikely this could be
accomplished via task orders placed under MAS contract vehicles or with current U4P
staffing levels.

If instead U4P is to play a more reactive role, responding to requests for training assistance
as they arise and without a comprehensive training/acquisition plan, the value added will
have to derive from other than the favorable pricing achieved under the current
unauthorized sole source contract. Despite its shortcomings, that action has shown that the

                                             11                           For Official Use Only
GSA/OIG/A050250/O/W/F06017 	                                              For Official Use Only


substantial commitment levels that accompany “corporate” versus individual training
requirements can result in substantial cost savings vis-à-vis the MAS contract price. It is
equally clear that options available under the MAS contracts primarily contemplate off-
the-shelf training; customized applications can easily push the requirement beyond the
intended scope of those contracts.

Recommendations
We recommend that the Acting Regional Administrator for GSA’s National Capital
Region ensure that U4P:
   1. 	Develops a formal business plan that includes a description of the business, its
       potential customers, marketing, competition, operating procedures, personnel,
       funding source and income projections.
   2. 	 Develops and maintains acquisition plans to support its business plan.
   3. 	Obtains appropriate procurement support and institutes the formal controls
       necessary to properly administer the resulting contracts. Vendor documentation
       and reporting requirements are elements of control that should be considered in the
       acquisition plan.
   4. 	Establishes appropriate fund and accounting controls to ensure compliance with
       applicable appropriation law and facilitates program management. A completed
       course database could help administer the MOAs. Also, open data fields within
       Pegasys could be used to identify and capture financial events by MOA and by
       curriculum.

Management’s Comments
The Acting Regional Administrator has provided comments to this report, which we have
included in their entirety as Appendix B. Overall, there was complete concurrence with
the audit recommendations; however, there are exceptions with our analysis of the Master
Training Agreement penalty terms, the contractual student minimum requirement, and
whether or not there is a bona-fide need for U4P to carry obligated funds from one fiscal
year to the next. We address those exceptions in the section below.

Auditor’s Response
We have reviewed our analysis in light of management’s response and clarified the text
where appropriate, but the salient facts remain and our conclusion is unchanged.

As to the penalty provision contained in the MTA, the conditions that could invoke the
penalty; i.e., failure to reach the agreed upon 75 class minimum, to a significant degree are
not offset by a cancellation fee provision present in the MOAs. The penalty provision
creates the potential for an unfunded liability and is therefore an unacceptable term as
structured.



                                             12	                         For Official Use Only
GSA/OIG/A050250/O/W/F06017                                                For Official Use Only


As to the minimum class size, the FY 2005 MTA is unambiguous; the value is changed
from 15 to 18 attendees. While subsequent documentation shows that it reverts back to 15
under the FY 2006 MTA, FY 2005 remains the relevant period of review for this audit.
The parties may have tacitly agreed to do otherwise, but the written agreement granted the
vendor an increase in the minimum class size, an action not in the best interest of the
government.

And finally, as to the funding violation, we agree that the issue is one of establishing bona
fide need. For service contracts, this necessitates a determination as to whether the
requirement is severable between fiscal years. In this case, because the requirement is
made up of multiple classes, and the timing and number of those classes is customer
determined, the requirement is clearly severable. As such, classes scheduled and
completed in the subsequent fiscal year cannot be considered a bona fide need of the prior
fiscal year. The customer’s reasons for delay - increased workload and the inability to
meet the minimum class size - are not relevant to this determination.

Management Controls
The report specifically addresses aspects of the U4P management control environment as it
relates to procurement practices, contract administration, and fund management. Control
weaknesses were identified in all three areas. Assuming program continuation, an
effective remedy is conditioned upon the procurement model to be adopted in the future, as
the procurement vehicle will drive the control requirements.




                                             13                          For Official Use Only
GSA/OIG/A050250/O/W/F06017 	                                           For Official Use Only


APPENDIX A


Notes:

   1. 	 Through the MTA, nine courses were made available to U4P that are not available
        on ESI’s MOBIS contract (Schedule 874)- highlighted in blue.

   2. 	 Five of these courses are Information Technology (IT) related and while not on the
        MOBIS Schedule, they are available on ESI’s IT Schedule contract (Schedule 70).
        We determined that 112 trainees attended the Systems Integration and Project
        Management course, 81 attended IT Risk Management, and 74 attended the
        Managing IT Projects course.

   3. 	 Managing e-Business Projects, Managing Project Managers, Project Management
        for Executives, and the Project Advantage are available through the MTA only and
        are not present through any MAS Schedule contract maintained by ESI.

   4. 	 Requirements Management: A Key to Project Success is available through ESI’s
        MOBIS Schedule contract only, and is not listed on the MTA.




                                            15	                        For Official Use Only
    GSA/OIG/A050250/O/W/F06017                                             For Official Use Only


    APPENDIX A
                                    Project Management Curriculum 

                      (Courses Included on MTA versus ESI Schedule Contracts) 


                          OFFERED COURSES                           MTA     MOBIS          IT
                                                                          SCHEDULE      SCHEDUL
                                                                                           E
Aligning Project Management with Corporate Strategy                  X        
X            

Business Process, Analysis, Innovation and Design                    X        
X            

Contracting for Project Managers                                     X        
X            

Establishing the Project Management Office                           X        
X            

Financial Management for Project Managers                            X        
X            

IT Risk Management
                                                  X         
            X      

Leading Project Managers: A Guide to Success                         X        
X            

Managing Complex Projects                                            X        
X            

Managing e-Business Projects                                         X

Managing Global Projects                                             X        
X            

Managing Information Technology Projects 
                           X         
            X      

Managing Project Managers                                            X

Managing Projects                                                    X        
X            

Negotiation Skills for Project Managers                              X        
X            

Network and Telecommunications Principles for Project Management
    X         
            X      

Program Management                                                   X        
X            

Project Leadership, Management, and Communications                   X        
X            

Project Management Applications 
                                    X        
X            

Project Management for Executives 
                                  X

Quality for Project Managers 
                                       X        
X            

Rapid Assessment and Recovery 
                                      X        
X            

Requirements Management: A Key to Project Success                             X

Risk Management
                                                     X        
X            

Schedule and Cost Control
                                           X        
X            

Software Testing for Better Project Management                       X         
            X      

Systems Integration Project Management
                              X         
            X      

The Project Advantage 
                                              X

Vendor Selection and Management: A Collaborative Approach            X        
X            

Writing Statements of Work: The Heart of Any Contract                X        
X            





                                                        14                 For Official Use Only
GSA/OIG/A050250/O/W/F06017                         For Official Use Only


APPENDIX B
                             Management Response




                                      16           For Official Use Only
GSA/OIG/A050250/O/W/F06017        For Official Use Only


APPENDIX B




                             17   For Official Use Only
GSA/OIG/A050250/O/W/F06017        For Official Use Only


APPENDIX B




                             18   For Official Use Only
GSA/OIG/A050250/O/W/F06017                                                                           For Official Use Only


APPENDIX C
                                               Report Distribution

                                                                                                                  Copies


Acting Regional Administrator, National Capital Region (WA)........................................ 3 


University for People (WA) ................................................................................................ 1 


Audit Follow-up and Evaluation Branch (BECA) ............................................................. 1 


Assistant Inspector General For Auditing (JA, JAO, JAS) ................................................ 3 


Regional Inspector General for Investigations (JI-W) ....................................................... 1 


Office of the Chief Financial Officer (B) ........................................................................... 2 





                                                               19                                    For Official Use Only
